OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/PAKISTAN’S
GENDER EQUITY PROGRAM
AUDIT REPORT NO. G-391-13-002-P
MARCH 28, 2013




ISLAMABAD, PAKISTAN
Office of Inspector General


March 28, 2013

MEMORANDUM

TO:                  USAID/Pakistan Acting Mission Director, Rodger D. Garner

FROM:                Office of Inspector General/Pakistan Director, Matthew Rathgeber /s/

SUBJECT:            Audit of USAID/Pakistan’s Gender Equity Program
                    (Report No. G-391-13-002-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments and included your response in Appendix II (without attachments).

The report contains two recommendations to help improve the Gender Equity Program.
According to information provided by the mission, it has taken final action on
Recommendation 1 and made a management decision on Recommendation 2. Please provide
the Audit Performance and Compliance Division in the USAID Office of the Chief Financial
Officer with the necessary documentation to achieve final action.

I want to thank you and your staff for the cooperation and assistance extended to us during this
audit.




U.S. Agency for International Development
American Embassy, Diplomatic Enclave
Ramna 5, Islamabad, Pakistan
http://oig.usaid.gov
CONTENTS
Summary of Results ................................................................................................................... 1

Audit Findings ............................................................................................................................. 3

     Program Grants Did Not Achieve Maximum Effect ................................................................ 3

     Mission Did Not Make Enough Site Visits .............................................................................. 4

Evaluation of Management Comments ..................................................................................... 5

Appendix I—Scope and Methodology ...................................................................................... 6

Appendix II—Management Comments ..................................................................................... 8
SUMMARY OF RESULTS
The Global Gender Gap Report 2012, published by the World Economic Forum, ranked
Pakistan 134th out of 135 countries in terms of its gender gap—the disparity in resources and
opportunities available to women and men. This gap hinders women in areas such as
education, inheritance, and employment. Addressing these factors requires sensitivity to cultural
beliefs and public opinion to build support for change.

In August 2010, USAID/Pakistan and the Aurat Foundation, a local nongovernmental
organization, signed a $40 million cooperative agreement to implement the Gender Equity
Program. The goal of the program is to facilitate behavioral change—in particular, to encourage
citizens’ active participation in social change and governance at all levels; enable women to
acquire control over their lives through greater access to information, resources, and
institutions; and improve attitudes and behavior toward women. The program is to award
approximately 400 grants of varying amounts over a period of 5 years to governmental and
nongovernmental organizations. To achieve its goal, the program established the following four
objectives, giving highest priority to the third:

1. Expanding women’s access to justice by engaging civil society, academia, and the media in
   carrying out campaigns to change behavior at the local level.

2. Increasing women’s empowerment by expanding knowledge of their rights and opportunities
   in the workplace, community, and home.

3. Combating gender-based violence by helping the government of Pakistan develop a policy
   on it, improving the quality of services for victims, and providing support for women in
   distress.

4. Strengthening organizations that advocate women’s rights and forming and training
   networks linking these organizations.

As of January 2013, USAID/Pakistan had obligated approximately $19 million and spent
$11 million for the program’s activities. The interventions focused on all four objectives. The key
activities under these interventions included conducting research on the gender gap in Pakistan;
doing baseline studies on knowledge, attitudes, and practices regarding gender; creating a
strategy to reduce gender-based violence; conducting campaigns for women’s rights; and
helping women obtain national identity cards.

The Office of Inspector General (OIG) conducted this audit to determine whether
USAID/Pakistan’s Gender Equity Program was advancing women’s rights through work on three
of the four objectives: expanding women’s access to justice, combating gender-based violence,
and strengthening organizations that advocate women’s rights.

USAID/Pakistan’s Gender Equity Program has made progress on all three objectives reviewed.
According to the program’s work plans for the first 2 years, the implementer intended to make
110 awards for work under the three objectives. As of November 2012, the implementer had
awarded approximately 150 grants to organizations throughout the country. Of these, 110 (73
percent) were awarded under the objective of combating gender-based violence.




                                                                                                 1
Under the objective of expanding women’s access to justice, program grants supported
152 young female lawyers gaining practical experience in defending women’s legal rights.
During OIG’s site visits to Punjab and Sindh from November 6 through November 21, 2012,
female lawyers said they appreciated the opportunity provided by the program to help them help
disadvantaged women fight for their rights. Women whom the lawyers helped told OIG that legal
counseling they received under the program contributed to their success in claiming their rights.

Under the objective on combating gender-based violence, activities began with registering
women in remote rural areas for identity cards. The cards are important because basic
identification is required for accessing public services such as hospitals, shelter homes, and the
courts. To educate citizens about women's rights and create awareness of gender-based
violence, the program completed public awareness campaigns about gender-based violence.
During our site visits, the organizers of these activities and participants said these activities had
taught them about gender issues.

Under the objective of building the capacity of Pakistani organizations that advocate women’s
rights, the program funded research with the National Commission for the Status of Women to
strengthen the Government of Pakistan’s policy on gender equity. The program also awarded
grants to support gender studies in public universities across the country, creating a network for
sharing knowledge, research, and experiences.

Although the program is making progress, the audit disclosed weaknesses in implementation
and oversight:

   Program grants did not achieve maximum effect (page 3). Grantees and beneficiaries
   interviewed said activities carried out to combat gender-based violence, such as media
   campaigns, were too short to have a lasting impact on the intended beneficiaries. These
   individuals also said the short duration and tight budget compromised the quality and
   sustainability of the activities. Further, awarding approximately 400 small grants as planned
   creates challenges for the prime implementer.

   USAID/Pakistan did not make enough site visits to verify the progress achieved (page 4).
   The lack of site visits led to overreliance on the results reported by the prime implementer.

Therefore, OIG recommends that USAID/Pakistan:

1. Develop a strategy with the implementing partner to include longer-term grants to sustain
   the progress achieved (page 4).

2. Implement an action plan with quarterly targets for conducting site visits, and create a
   system to track site visit findings (page 4).

Detailed findings follow. A description of the audit scope and methodology appears in
Appendix I. Full text of management comments appears in Appendix II (without attachments),
and our evaluation of management comments is included on page 5.




                                                                                                   2
AUDIT FINDINGS
Program Grants Did Not Achieve
Maximum Effect
Automated Directives System (ADS) 200.3.1.3, “Applying Selectivity and Focus,” states that the
volume of resources invested in a sector should be “large enough to have a meaningful,
measurable, and lasting impact.”

Contrary to this guidance, the grant-making process was not having a meaningful, measureable,
and lasting impact on intended beneficiaries. As of January 2013, the implementer had awarded
130 grants with performance periods of less than a year. According to the beneficiaries
interviewed, the grant activities did not reach a sufficient number of area residents. Beneficiaries
suggested that following up awareness campaigns with educational or social activities would
have encouraged more people to participate. Similarly, the subgrantees implementing these
small grants also indicated that the duration of the grants was not adequate to build lasting
awareness of women’s rights in the target area.

The grants did not achieve maximum effect because they lasted too short a time and their
budgets were too small. The program intends to award approximately 400 small grants over
5 years. As of January 2013, the implementer had awarded approximately 150 grants—most
(87 percent) with a performance period of 6 to 12 months and budgets of less than $75,000.

The reason for making many small grants was to ensure an adequate geographic mix of
grantees, as well as to have a quick-impact activity that would have a measureable, long-lasting
effect on behavior. However, by creating numerous small grants, the program has reduced
effectiveness. Furthermore, the implementer acknowledged that the large number of grants
planned makes the grant-making process demanding and laborious.

Because grants were small and of short duration, the work performed suffered. The grantees
performed a restricted set of activities that reached a small number of beneficiaries. For
instance, a grantee celebrating Pakistani Women’s Day in Sindh Province was able to reach
only 600 people out of tens of thousands of potential beneficiaries. Similarly, the grantee
conducting the 16 Days of Activism for Women’s Rights campaign led activities and group
discussions for a shorter period than needed to have the maximum effect. A longer performance
period would have allowed more intended beneficiaries to participate, increasing impact.

Another result of having a series of small grants awarded to various grantees was the delay
between the first and subsequent grants. Each new grant, irrespective of dollar amount, must go
through solicitation, selection, and approval, creating a time lag for grantees that completed the
preceding grant. Since grantees have limited funds and resources, engaging beneficiaries
during time lags is difficult. For example, after completing a campaign to raise awareness of
gender-based violence in a village in Punjab, one grantee had to wait again for selection and
approval from the prime implementer before starting work on related activities, such as
counseling victims of gender-based violence. In addition, a grantee that does not receive a
subsequent grant is unlikely to pass on insights to the new awardee.




                                                                                                  3
To address the grant limitations, we make the following recommendation.

   Recommendation 1. We recommend that USAID/Pakistan develop a strategy with the
   implementing partner to include longer-term grants to sustain the progress achieved.

Mission Did Not Make Enough
Site Visits
According to ADS 303.3.17.b, “site visits are an important part of effective award management”
and should take place as needed. The findings of the site visits should be documented in the
official award file. In addition, USAID/Pakistan Mission Order 200.1 emphasizes that the
mission is responsible for conducting site and field visits to verify results reported by
implementers.

The mission did not provide adequate oversight to verify the results reported by the prime
implementer. Mission officials made only 11 site visits, a majority of which occurred after OIG
began auditing this program. Of the 11 site visits reported by the mission, only 3 were
documented. Given that the site visits involved only 9 of the more than 150 subgrants made
over the last 2.5 years, the site visits covered less than 10 percent of the subgrantees.

Mission officials explained that few site visits occurred during the first 2 years of implementation
because of staffing shortages. Officials also said the travel requirements imposed by the
Regional Security Office in Pakistan hampered the mission’s ability to perform site visits.

Consequently, the mission has not verified progress but has relied on the results reported by the
prime implementer. Had mission officials performed frequent site visits and spoken with the
beneficiaries and grantees, they would have seen the need to limit the number of grants and
work with the grantees for longer periods to sustain progress.

To address this issue, we make the following recommendation.

   Recommendation 2. We recommend that USAID/Pakistan implement an action plan
   with quarterly targets for conducting site visits, and create a system to track site visit
   findings.




                                                                                                  4
EVALUATION OF MANAGEMENT
COMMENTS
USAID/Pakistan agreed with the two recommendations in the report. According to the
information the mission provided in its response to the draft report, it took final action on
Recommendation 1 and made a management decision on Recommendation 2.

Recommendation 1. USAID/Pakistan agreed and has taken action. It has worked with the
implementing partner to develop a work plan that focuses on providing longer-term grants to
specific districts to counter the causes and consequences of gender-based violence. The
mission acknowledges that in collaboration with the implementing partner it is in a position to
increase the number of longer-term grants in the future. Therefore, the mission has taken final
action.

Recommendation 2. USAID/Pakistan agreed to increase the number of site visits, and plans
to take final action by September 30, 2013. It has hired additional staff and has initiated
discussion with U.S. Embassy Islamabad to facilitate USAID staff’s site visits through improved
access to Embassy motor pool service. The mission plans to conduct site visits each quarter,
covering at least 40 percent of subgrantees over the life of the program. It is also exploring
alternative, third-party mechanisms to support the proposed site visits and will use a database
to plan and track them. Therefore, the mission has made a management decision.

The Audit Performance and Compliance Division will determine final action when the mission
completes the planned corrective actions for Recommendation 2. The mission’s written
comments are included in their entirety (without attachments) in Appendix II of this report.




                                                                                             5
                                                                                      Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
in accordance with our audit objective. We believe that the evidence obtained provides that
reasonable basis.

The purpose of this audit was to determine whether USAID/Pakistan’s Gender Equity Program
was advancing women’s rights by expanding women’s access to justice, combating gender-
based violence, and strengthening the capacity of Pakistani organizations that advocate
women’s rights. As of January 31, 2013, cumulative obligations and expenditures under the
agreement totaled approximately $19 million and $11 million, respectively. The audit team
judgmentally sampled 15 grants implemented under the cooperative agreement totaling $1.1
million.

In planning and performing the audit, the audit team reviewed the control environment at the
mission. We examined the mission’s fiscal year 2012 self-assessment of management controls,
which the mission is required to perform to comply with the Federal Managers’ Financial
Integrity Act of 1982 (as codified in 31 U.S.C. 3512), to check whether the assessment cited any
relevant weaknesses. We also reviewed USAID policies and procedures pertaining to
USAID/Pakistan’s Gender Equity Program, including ADS Chapters 200 and 303.

The audit team assessed relevant internal controls used by the mission to manage the activities.
These controls included maintaining regular contact with the implementer, reviewing and
approving key decisions, performing site visits, and assessing reported results. The audit team
also reviewed the implementer’s control environment, including a review of the grant-making
process, quality control, accounting functions, and the reporting of results.

The audit team performed fieldwork at the USAID/Pakistan mission, the implementer’s main
office in Islamabad, and the provincial offices in Lahore and Karachi. The team also met with
15 grantees in Punjab and Sindh from November 6 through November 21, 2012.

Methodology
To answer the audit objective, we reviewed mission documentation used to manage and
monitor the activities. These documents included the country operations plan, performance
management plans, the agreement, reported results, financial reports, and site visit reports. We
also interviewed mission officials; staff at the implementer’s office; and stakeholders including
local grantees, community members, and beneficiaries. We also compared plan targets with
reported results.

For this project, the audit team considered effectiveness to mean meeting the established
performance targets included in the annual work plans. The annual work plans included targets
for the number of subgrants to be awarded each year and identified activities for each of the
four objectives.



                                                                                               6
                                                                                        Appendix I



The audit evaluated whether the indicators used to measure the effectiveness of activities were
sufficient to permit their use in answering the audit objective. Through discussions with
USAID/Pakistan officials and the implementer, the auditors gained an understanding of how
(1) the indicators were defined, (2) data sources were used, and (3) data flowed from the project
sites to the mission for inclusion in monthly reports.

In assessing the status of the activities carried out during the first 2 years of the agreement, the
auditors relied primarily on the implementer’s quarterly and annual progress reports from
September 2010 through September 2012, supplemented by interviews conducted with
USAID/Pakistan officials, implementers, grantees, and beneficiaries about achievements and
problems reflected in these reports.

To validate data for the activities, the auditors checked reported results against supporting
documentation maintained by the implementer. The audit team also visited 15 sites to monitor
progress, speak with community stakeholders, and verify reported results.




                                                                                                  7
                                                                                     Appendix II




MEMORANDUM

Date:         March 25, 2013

To:           Matthew Rathgeber
              Director OIG/Pakistan

From:         Rodger Garner /s/
              Acting Mission Director

Subject:      Management Comments on the Performance Audit of USAID/Pakistan’s
              Gender Equity Program (GEP)

Reference:    Draft Report No. G-391-13-002-P dated February 08, 2013


The USAID/Pakistan Mission would like to thank the OIG for providing the Mission the
opportunity to review the draft performance audit report of the Gender Equity Program. The
Mission would like to thank OIG for their professionalism and transparency in the process. The
Mission management appreciates efforts of the OIG in explaining the audit process and
maintaining a collegial atmosphere. The Mission is in the process of conducting a mid-term
evaluation of the Gender Equity Program. OIG’s performance audit report will serve as an
instructive tool for the mid-term evaluation. Please find below our management comments on the
recommendations included in the referenced audit report.

Recommendation No. 1:.
We recommend that USAID/Pakistan develop a strategy with the implementing partner to
include longer term grants to sustain the progress achieved.

Management Comments:
The Mission Management agrees with this recommendation. Under Cooperative Agreement 391-
A-00-10-01162-00, USAID’s involvement in the performance of the Gender Equity Program is
set forth in Section A.13 “Substantial Involvement”. The Program Description approved by
USAID lays out the recipient’s methodology for determining the number of awards as well as the
value and duration of the awards to be made. With these boundaries in mind, USAID/Pakistan
will work collaboratively with Aurat Foundation to address this recommendation.

The recipient has proposed a flexible strategy for sub-grants (see Cooperative Agreement pp. 30-
31, “Sub Grants – Strategy and Estimated Grant Breakdown”). USAID is in a position to
collaboratively engage with the implementing partner within the context of its annual planning to
adopt a course of action that increases the number of higher value, multi-year awards to be made.
Also the OIG should note that over the past two years our partner has, indeed, demonstrated its


                                                                                               8
                                                                                          Appendix II


receptiveness to adjusting the value and number of grants to be awarded. The Mission
Management would like to specifically reference the Gender Equity Program’s Year 3, Cycle
Seven Terms of Reference for the Request for Proposal (RFP) document (attached as Annex- A),
in which the implementing partner is focusing on supporting a limited number of districts, and
providing larger, longer term grants, when compared to Year 1 and Year 2 (Grants data summary
for Year 1 & 2 is attached as Annex- B), to support a seamless service delivery approach that
will involve a very specific number of public and private sector actors working in tandem to
counter the causes and consequences of gender-based violence.

Effectiveness and sustainability, we believe, should not be viewed solely through the lens of the
specific projects being funded but additionally through the lens of building social capital, i.e.,
strengthening organizations’ capacity and capabilities to plan and implement other projects. And,
in that regard, it is quite noteworthy to mention that recipients who were provided small, time-
limited grant awards to conduct public awareness activities during last year’s National and
International Women’s Days, have this year planned and implemented, without any GEP
financial support, their own public awareness campaigns. For these reasons we would not be
prepared to accept the elimination of all small value, time limited awards.

In view of the above, we request closure of this recommendation upon issuance of the final audit
report.


Recommendation No. 2: We recommend that USAID/Pakistan implement an action plan to
verify progress by setting quarterly targets to conduct site visits and create a system to
track site visit findings.

Management comment:
The Mission Management agrees with this recommendation. Increasing site visits and
monitoring of small grants is one of our top priorities. In the first two years of the project, the
Mission was not able to conduct regular monitoring visits because of staffing shortages. Now,
with a full-time dedicated Program Manager for the Gender Equity Program and an Information
and Outreach specialist who is responsible for coordinating site visits, we plan to conduct
site/monitoring visits each quarter, covering activities/progress of at least 40% of our sub-
grantees over the life of the Program. The Mission has also initiated discussions with Embassy
Management on motor pool service standards with the goal of improving support for all USAID
staff and programs. That being said, significant travel constraints remain due to logistical and
security issues. To mitigate these issues, the Mission is exploring alternative, third party
mechanisms, to support the proposed site/monitoring visits. Moreover, the DG Office's Small
Grants database system will allow us to better plan and track site visits. The final action on this is
expected to be completed by September 30, 2013.




                                                                                                    9
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
